<html>
<title> - SEQUESTRATION OVERSIGHT: PRIORITIZING SECURITY OVER ADMINISTRATIVE COSTS AT TSA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
  SEQUESTRATION OVERSIGHT: PRIORITIZING SECURITY OVER ADMINISTRATIVE 
                              COSTS AT TSA

=======================================================================



                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 of the

                         COMMITTEE ON OVERSIGHT

                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 18, 2013

                               __________

                           Serial No. 113-22

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform




                  U.S. GOVERNMENT PRINTING OFFICE
81-243                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              MARK POCAN, Wisconsin
DOC HASTINGS, Washington             TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
ROB WOODALL, Georgia                 DANNY K. DAVIS, Illinois
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

                   Subcommittee on National Security

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts 
JOHN J. DUNCAN, JR., Tennessee           Ranking Minority Member
JUSTIN AMASH, Michigan               CAROLYN B. MALONEY, New York
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
TREY GOWDY, South Carolina           JACKIE SPEIER, California
CYNTHIA M. LUMMIS, Wyoming           PETER WELCH, Vermont
ROB WOODALL, Georgia                 MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 18, 2013...................................     1

                                WITNESS

Mr. John W. Halinski, Deputy Administrator, Transportation 
  Security Administration, U.S. Department Homeland Security
    Oral Statement...............................................     9
    Written Statement............................................    11


 SEQUESTRATION OVERSIGHT: PRIORITIZING SECURITY OVER ADMINISTRATIVE 
                              COSTS AT TSA

                              ----------                              


                       Thursday, April 18, 2013,

                  House of Representatives,
                 Subcommittee on National Security,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:00 a.m. in 
room 2154, Rayburn House Office Building, the Hon. Jason 
Chaffetz [chairman of the subcommittee], presiding.
    Present: Representatives Chaffetz, Mica, Issa, Gowdy, 
Speier and Cummings.
    Staff Present: Alexia Ardolina, Majority Assistant Clerk; 
Molly Boyl, Majority Parliamentarian; Daniel Bucheli, Majority 
Assistant Clerk; Caitlin Carroll, Majority Deputy Press 
Secretary; John Cuaderes, Majority Deputy Staff Director; Adam 
P. Fromm, Majority Director of Member Services and Committee 
Operations; Linda Good, Majority Chief Clerk; Michael R. Kiko, 
Majority Staff Assistant; Mitchell S. Kominsky, Majority 
Counsel; Mark D. Marin, Majority Director of Oversight; Scott 
Schmidt, Majority Deputy Director of Digital Strategy; Rebecca 
Watkins, Majority Deputy Director of Communications; Jaron 
Bourke, Minority Director of Administration; Devon Hill, 
Minority Research Assistant; Chris Knauer, Minority Senior 
Investigator; Rory Sheehan, Minority New Media Press Secretary; 
Cecelia Thomas, Minority Counsel.
    Mr. Chaffetz. Good morning. The committee will come to 
order.
    I would like to begin this hearing by stating the Oversight 
Committee mission statement. We exist to secure two fundamental 
principles. First, Americans have a right to know the money 
Washington takes from them is well spent; and second, Americans 
deserve an efficient, effective government that works for them. 
Our duty on the Oversight and Government Reform Committee is to 
protect these rights.
    Our solemn responsibility is to hold government accountable 
to taxpayers, because taxpayers have a right to know what they 
get from their government. We will work tirelessly in 
partnership with citizen watchdogs to deliver the facts to the 
American people and bring genuine reform to the Federal 
bureaucracy. This is the mission of the Oversight and 
Government Reform Committee.
    First, I would like to take a moment to express our deepest 
condolences to the victims and families of the Boston Marathon 
attacks and certainly what is happening at this time in West, 
Texas. It affects all of us. You can't be human and not feel 
for the people that are having to deal with these things.
    You also can't be grateful enough to the men and women who 
are there and responding. They woke up one day and everything 
was good and they were going to go to work or enjoy a marathon, 
or just be at home, and then all of a sudden, a disaster 
strikes, and terrorism strikes. And there are good men and 
women who wake up and answer that call and respond. They didn't 
necessarily choose or think they were going to be in that 
situation. But suddenly they were. Our hearts and prayers go to 
them.
    And certainly, with my colleague and ranking member, Mr. 
Tierney, who is obviously in the Massachusetts area today, we 
will miss him, but totally understand it is the right place for 
him to be.
    Senseless acts of violence and terrorism, such as what 
happened in the community of Boston, should never be tolerated. 
The bombings are a sober reminder that the threat of terrorism 
has not disappeared.
    I want to specifically commend the TSA, including officers 
at the Boston Logan Airport for their dedication and working 
closely with the Boston police to heighten security and help 
ensure the safety of the traveling public. Their quick and 
immediate response in making sure that some of those facilities 
were secure for some of the departures of somebody who might be 
trying to escape are certainly commendable, not only in Boston 
but some of the smaller, other regional airports as well.
    TSA proactively helped by asking passengers if they had 
seen anything, had photos or videos of the explosion. Also, it 
is my understanding that TSA wisely increased security at other 
significant airports during a period when it is unknown whether 
the bombings in Boston were part of a greater plot. For that, 
we are very grateful to the men and women who participated. 
That is what they are there for, and we need their help and 
their expertise and we appreciate it.
    The tragedy which occurred in Boston is very much relevant 
to today's proceedings, as this hearing is designed to evaluate 
the impact of the sequestration on TSA's security operations. 
On March 1st of this year, the President issued a sequestration 
order, as required by law, mandating $3.2 billion in budget 
cuts for the Department of Homeland Security.
    Prior to and in the wake of sequester, Secretary Napolitano 
alarmed the public with sharp rhetoric on multiple occasions 
that TSA's operations would in fact be significantly impacted 
via the sequestration. For example, on March 4th of this year, 
Secretary Napolitano stated that airport lines were already 
``150 to 200 percent as long as they would normally expect,'' 
and that TSA would start sending furlough notices immediately.
    However, in TSA Deputy Administrator Halinski's written 
testimony for today's hearing, Mr. Halinski states that ``the 
initial projected impacts on wait times are largely 
mitigated.'' This assessment seems in stark contrast to 
Secretary Napolitano's initial rhetoric.
    Now, we are almost two months beyond the start of 
sequestration, and today I would like to learn whether TSA has 
furloughed any employees, and if so, how many. I would also 
like to hear today if Secretary Napolitano's concerns about 
wait times doubling for the traveling public has proven true.
    Deputy Administrator Halinski's written testimony also 
notes that ``After applying sequestration to its final enacted 
fiscal year 2013 appropriation, TSA's fiscal year 2013 funding 
level is $670 million less than fiscal year 2012.''
    Placed in context, however, President Obama's fiscal year 
2013 budget includes $7.65 billion for TSA, which includes more 
than $2.5 billion in fee collections. In other words, while the 
reduction to TSA's budget does require prudent planning, I 
strongly believe that TSA could be cutting unnecessary 
administrative costs and spending more effectively on security 
programs and other types of technology.
    For example, despite the looming budget cuts required by 
sequestration, TSA agreed to an eyebrow-raising $50 million 
contract for TSA uniforms. I will note, though, that I do 
appreciate the responsiveness from the TSA. In my short time 
here, I have seen a dramatic change in the responsiveness. 
Initially as we sent letters and other things back to the 
agency, we didn't get any responses. But in the case 
specifically of the uniforms, we got a very thorough and a very 
timely response. That is new. We like that. We encourage that. 
We applaud it and we note it here today.
    Moreover, during the 112th Congress, this subcommittee held 
a series of TSA oversight hearings. During these hearings, we 
learned that there are numerous examples of ongoing waste at 
the TSA. These hearings examine the range of issues including 
the effectiveness, privacy issues, health risks associated with 
whole body imaging machines. We looked into the use of canines, 
airport perimeter security, SPOT program, TWIC, TSA 
procurement, deployment and storage of airport security-related 
equipment.
    I would also note the work of the then-chairman of the 
Transportation Committee, Mr. Mica, who is here on this panel 
with us today, and thank him for his good work on the oversight 
of this as well.
    GAO believes the SPOT program, for instance, which has 
already cost taxpayers more than $800 million, is ineffective 
and recommended that Congress should consider limiting funding 
for the program. Likewise, committee investigators found that 
TSA had wasted approximately $184 million by inefficiently 
deploying screening equipment and technology to commercial 
airports.
    These are just a few examples of a number of potential ways 
for TSA to spend taxpayer funding more efficiently to account 
for the budget reduction without impacting security operations 
or increasing wait times.
    Today's hearing should explore potential solutions to 
account for the budget cuts without affecting operations. For 
example, instead of using whole body imaging, TSA should be 
doing an analysis of whether canines would be more effective in 
conjunction with metal detectors and behavioral profiling and 
other types of efforts like that.
    I also invited the Customs and Border Protection today, 
CBP, but unfortunately they are unable to testify.
    Mr. Halinski, I would like to hear your thoughts on how to 
lessen wait times for international travelers entering the 
United States. I look forward to hearing from the Deputy 
Administrator about the continued planning for sequestration 
and the challenge faced by the TSA and the solutions we can 
reach together.
    I would now like to recognize the gentlewoman from 
California, Ms. Speier, for her opening statement.
    Ms. Speier. Mr. Chairman, thank you, and thank you, Mr. 
Halinski, for being here. I too want to associate myself with 
the comments made by the Chair in applauding the first 
responders in Boston, our FBI who was on the scene immediately, 
and send our condolences to the families who have lost loved 
ones and those who have endured excruciating pain and maiming 
as a result of this horrific incident. It draws into clarity 
why we do need to have a homeland security operation and TSA as 
well.
    I first want to make clear that I believe that deficit 
reduction should be a priority. But I am also of the opinion 
that spending cuts should be targeted and implemented in a 
strategic way.
    Unfortunately, Congress did not allow Federal agencies that 
discretion. Instead, Congress required all Federal agencies to 
make a hatchery of cuts to every program activity and program. 
This was supposed to be such a bad idea that it would not 
happen. But as a result of this dysfunction and the institution 
it has, and we and the public are now seeing some of the 
consequences.
    We heard on Tuesday about planned cuts to services in our 
national parks, our beloved Smithsonian. But at least those do 
not affect our national security.
    At TSA, sequestration was causing reductions in the number 
of TSA officers at the Nation's airports. TSA was powerless to 
prevent that outcome because Congress had required the agency 
to impose these across the board cuts. So Congress took action, 
as only Congress can. It passed a new law that provided TSA 
with additional funds to partially reverse the effects of 
sequestration. Still, Congress has not even tried to reverse 
the effects of sequestration at most other Federal agencies.
    Today we will hear from TSA regarding the impacts of 
sequestration on their operations, and on national security. I 
look forward to hearing how they have been affected by these 
budget cuts and its plans to try and balance administrative 
personnel and equipment costs going forward.
    One of the biggest cuts has been to TSA's information 
technology budget. This includes checkpoint technologies, 
security screening equipment and infrastructure accounts. These 
budget cuts have caused contracts for new IT equipment and 
maintenance to be deferred or reduced, leaving security 
equipment prone to error and threatening our citizens safety.
    At the same time, I have in the past been concerned by some 
of TSA's technology programs and procurement efforts including 
the much-discussed airport puffer machines several years ago, 
that were purchased without any determination of whether they 
would work in an airport environment.
    I would like to hear from TSA how TSA has improved its 
technology procurement practices and how, in this challenging 
budget environment, TSA will ensure accountability and an 
adequate acquisition workforce to ensure proper use of TSA 
funds in technology development.
    Finally, the Federal air marshals the last line of defense 
against those who seek to disrupt domestic flights, through 
criminal or terrorist actions, will be cut by $49 million and 
are expected to remain on a hiring freeze. I look forward to 
hearing how this will affect the security of the traveling 
public and its long-term implications for the air marshal 
services.
    These are not speculations or scare tactics, but rather, 
these cuts are affecting real people and we need to have our 
eyes wide open to assess to what extent these cuts potentially 
jeopardize the safety and security of the United States. It is 
the responsibility of Congress to make these budget cuts more 
targeted and less likely to put innocent citizens in harm's 
way.
    I would like to join with the chairman and my colleagues on 
both sides of the aisle to start a meaningful, bipartisan 
negotiation to replace aspects of the sequester and to prevent 
these cuts from becoming something we will regret. I have 
recently launched the bipartisan Congressional Watchdog Caucus 
with Congressman Coffman of Colorado to create a culture of 
accountability for taxpayer dollars. I firmly believe that if 
we work together we can be smarter in weeding out waste, be 
fiscally sound and still ensure the safety of the traveling 
public.
    In light of the despicable terrorist bombings that occurred 
in Boston on Monday, I cannot imagine that any American citizen 
is remotely interested in hearing about how the dysfunction of 
this Congressional body allowed unnecessary and preventable 
budget cuts to compromise their safety.
    I yield back.
    Mr. Chaffetz. I now recognize the chairman of the full 
committee, the gentleman from California, Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman, Ranking Member Speier, 
Mr. Cummings, my ranking member, and Mr. Mica.
    We have all sat through multiple hearings about the 
dysfunctional organization known as the TSA. Now, Ms. Speier 
says sequestration is to blame. If I were a southerner and had 
been around animals long enough, I could say ``bull'' in a 
better way. But it is bull.
    You are here today because, in fact, you have more assets 
than you should possibly need. You have grown assets, you have 
grown bureaucracy, your organization is constantly known as 
TSA, Thousands Standing Around. And the reason is, you 
endlessly include more and more people doing less and less.
    And I am not blaming the men and women of the TSA. There 
has been a pattern of acquisitions, of products that don't 
work, warehouses filled with equipment that was bought and not 
used, contracts that promised to do one thing, and $1 billion 
later, they don't do what they claim to do.
    I think the most important thing is, until people going 
through checkpoints see the efficiency of people with blue 
uniforms, and by the way, I would like those blue uniforms to 
be a little more cost effective the next time you buy them, 
they are not going to believe a word you say today. You can 
tell us everything you want to tell us, but the men and women 
on the dais here, we go through the checkpoints. We see it. We 
see long lines, we have seen long lines for more than a decade, 
as your numbers have increased.
    We see more people right now working in the headquarters of 
the TSA than work in the GAO, our accounting and investigation 
section. You have practically as much overhead as all of 
Congress. And yes, you have made cuts in areas that could 
potentially endanger America, because you haven't been willing 
to have attrition and right-sizing. You haven't encouraged 
alternatives to Federal employees when you could.
    Now, the truth is, and I think the chairman would say he 
has seen it going back to Utah, like I have seen it going back 
to California, I listen to people who are TSA employees being 
used to say, no water bottles, put this in there, do this, do 
that. The bottom line is, that does not have to be an essential 
function. There were essential failures on 9/11, and they were 
mostly what we didn't know. And each time we have had another 
incident, we learn something else, your men and women, your 
hard-working men and women, have tried to react.
    But between too much overhead, organizational failures, 
incredible staffing questions, I am going to close with this, 
Mr. Chairman. And this is not a normal opening statement for a 
chairman. But when I see these little daises being put up so 
that supervisors can look over the legions of people that it 
takes to put somebody through a line, I could do a simple 
count, and every member here can. The number of people to move 
a person through the line is not going down, it is going up.
    Now, you are going to testify about, woe is me, we are 
going to be unsafe because we got a little less dollars. Go 
back to your budget after 9/11, 2003, 2004, 2005. Move it up in 
constant dollars and I am terribly sorry, but by 2004, tell me 
that shouldn't have been your highest cost at the time. It is 
not that there were more travelers, there were less.
    So as you give us your testimony, bear in mind that the 
only people who will really believe that you are doing all you 
can for efficiency and safety are people who have not flown.
    I yield back.
    Mr. Chaffetz. I thank the chairman. I now recognize the 
ranking member, the gentleman from Maryland, Mr. Cummings, for 
an opening statement.
    Mr. Cummings. Thank you very much.
    I had not intended to even attend this hearing. I really 
didn't intend to say anything. But I want us to not be 
distracted. I want us to not be distracted.
    We have to make sure that the people that we represent are 
getting the best service possible. Their health, their safety, 
their welfare is number one.
    It is easy to sit back and try to quarterback the other 
team. Decisions have to be made at TSA, and I am going to 
believe that TSA wants to do the right thing. That does not 
necessarily mean that I or my colleagues will agree with those 
decisions.
    But first of all, I want to make sure that those decisions 
are based in a culture of integrity. That is number one. Number 
two, I want to know that they are informed decisions; that is, 
that you have gathered information and your decisions are based 
upon information that is accurate. Number three, I want to know 
that the decisions were based upon and consistent with the 
goals of TSA.
    Now, we all know that sequestration has had its impacts. It 
has had a tremendous impact. If it can have an impact on Johns 
Hopkins University, which is smack dab right in the middle of 
my district, which is now having to end research on some life-
saving types of research, it certainly can have an impact on 
TSA. What I am interested to know is, number one, how these 
decisions were made; number two, is there some room to do 
things differently; number three, were they consistent with 
making sure that the public is safe.
    And certainly we all want to know that there is a balance. 
Safety is number one. And convenience is down the line. I don't 
want to sacrifice safety for convenience. So I am hoping that 
the testimony will shed some light on what I just said.
    Finally, let me leave you with this. In the end, the 
Republic is looking at us, as members of the Congress, and I am 
sure asking why can't you all get this right. I am not going to 
sit here and blame TSA, I am going to blame us. We are the ones 
who are responsible for sequestration, because of our failure.
    Now, that does not let TSA off the hook. But we have our 
own homework to do. But in the midst, and I tell my kids that 
usually in bad situations, people do not so bright things. 
Under pressure, people do not so bright things. So I am hoping 
that while we are going through this sequestration that we are 
making the very best decisions, consistent with the goals that 
I just mentioned. So I am looking forward to hearing the 
testimony. And I want to know what the future looks like, no 
matter what, assuming that this Congress is doing what it is 
supposed to do. I am praying to God that we do, but assuming 
that we don't, assuming that there are additional cuts, I want 
to know what the future looks like. Because that is what we 
have to deal with. We cannot deal with illusions. This is 
reality, because we are dealing with the safety of our 
constituents.
    With that, Mr. Chairman, I want to thank you for your 
courtesy, and I yield back.
    Mr. Chaffetz. I thank the ranking member and now recognize 
the gentleman from Florida, Mr. Mica, for five minutes.
    Mr. Mica. First of all, thank you, Mr. Chairman, and 
ranking member. Let me say that Mr. Chaffetz and I and the 
chairman have sat down to look at how we are going to approach 
improving and reforming TSA. And with this hearing, we are 
beginning under the jurisdiction of this subcommittee, National 
Security, that process.
    We will continue that in my subcommittee, Government 
Operations. We will begin a series of hearings in May and we 
will target some operations that transcend just the national 
security area. And you can see from the passion of the 
chairman, probably at the full committee, we will be taking up 
this matter as far as the need to reform and dramatically 
overhaul an agency that has spun out of control.
    I can tell you that it has spun out of control because I 
helped create it. Originally we had 16,500 screeners, private 
screeners under the airlines' supervision. On 9/11/2001, it 
wasn't that group that failed, it was the Federal Government 
who did not set guidelines or parameters or restrictions in 
place. Never, I can tell you, in our wildest imagination, did 
we expect to balloon from 16,500 to 65,000 TSA employees. In 
fact, we have now grown to bigger than seven Cabinet agencies. 
We are spending close to $8 billion, an incredible sum of 
money.
    We have 51,000 screeners, according to their website. That 
means you have another 14,000 administrative staff. I see they 
are now cooking the latest books and trying to mislead Congress 
on what they spend for administration, which is approximately 
$1.8 billion for screening and about $1.2 billion. They have 28 
percent of the headquarters employees who are supervisors. We 
are here to talk about sequestration, and as the chairman 
pointed out in his opening statement, the Secretary tried to 
mislead the public and the Congress by saying that line would 
be 150 percent or people would be inconvenienced by what 
Congress did.
    Now, with 51,000 screeners, they can't get the job done. I 
can tell you it can be done with less than half that number. We 
need to get them out of the screening business. They are not 
law enforcement officers. TSA was set up to connect the dots 
and also to set the standards and also to coordinate some of 
the effort. But what we have now is an agency that again has 
spun out of control. We have again a situation where they are 
spending money, and we will look at it today, on things like 
uniforms. I am told that our Marines are given a $400 lifetime 
allowance. And a few weeks before sequestration they sign a 
multi-million, I think it is tens of millions of dollars for 
thousand dollar, which I guess they had agreed to with the 
screeners' allowance, to put that into perspective.
    We only have 457 airports where we have TSA's presence, and 
we are spending in fact huge amounts of money with huge amounts 
of personnel. If you take 3,000 to 4,000 people in Washington, 
administrative personnel, another 10,000 in the field, do the 
math of the army that is out there in administrative staff 
alone, not to mention the failures in training, employment, in 
a whole host of areas that are all outlined. I would ask that 
this report that the Transportation Committee put together on 
the tenure record of TSA, which is a record of failure, it was 
outlined by the chairman, the purchase and implementation of 
deployment of top technology, of hiring and training, retaining 
personnel. It goes on and on.
    The different systems that have been put in place, not by 
my judgment, but by other evaluative agencies like GAO, the 
failure in behavior detection programs, never detecting a 
single terrorist, in fact, letting some of the known suspects 
get through. It is a record of failure and it needs to stop.
    I look forward to working with Chairman Chaffetz, the full 
committee chairman, ranking member and others to do better. We 
can and we must. I yield back.
    Mr. Chaffetz. Without objection, we will enter that into 
the record. So ordered.
    Does the gentleman from South Carolina have an opening 
statement?
    Mr. Gowdy. No, sir, Mr. Chairman.
    Mr. Chaffetz. Members will have seven days to submit 
opening statements for the record.
    We will now recognize our first panel, the only witness 
that we have here today, Mr. John Halinski, who is the Deputy 
Administrator for the Transportation Security Administration. 
Mr. Halinski, we appreciate your being here today.
    Pursuant to committee rules, all witnesses are sworn in 
before they testify. So if you would please stand and raise 
your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth and nothing 
but the truth?
    [Witness responds in the affirmative.]
    Mr. Chaffetz. Thank you. You may be seated, and let the 
record reflect that the witness answered in the affirmative.
    Mr. Halinski, we now recognize you for your opening 
statement.

     STATEMENT OF JOHN W. HALINSKI, DEPUTY ADMINISTRATOR, 
  TRANSPORTATION SECURITY ADMINISTRATION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Halinski. Good morning Chairman, distinguished members 
of the Subcommittee. Thank you for the opportunity to testify 
today about the impact of sequestration on the Transportation 
Security Administration's operations.
    As you know, the President's March 1 sequestration order, 
as mandated by law, requires across-the-board budget cuts at 
most Federal agencies, including $3.2 billion in cuts for the 
Department of Homeland Security through the end of this fiscal 
year.
    TSA is the Federal Government's lead agency for protecting 
our transportation systems from terrorist attacks while 
ensuring the freedom of movement for people and commerce. The 
agency manages effective and efficient screening and security 
of all air passengers, baggage, and cargo on passenger planes. 
It also deploys Federal Air Marshals internationally and 
domestically to detect, deter, and defeat hostile acts 
targeting air carriers, airports, passengers, crews, and other 
transportation infrastructure.
    Each year, transportation systems protected by TSA 
accommodate approximately 640 million aviation passengers; 751 
million passengers traveling on buses; more than 9 billion 
passenger trips on mass transit; nearly 800,000 daily shipments 
of hazardous materials; more than 140,000 miles of railroad 
track; more than 4 million miles of public roads; and nearly 
2.6 million miles of pipeline.
    TSA functions as a critical component of those efforts with 
a highly dedicated workforce working around the clock and 
across the globe to execute our transportation security 
responsibilities. Every day we interact closely with public and 
private sector stakeholders in the aviation, freight rail, mass 
transit, passenger rail, highway, and pipeline sectors to 
employ an intelligence-driven, risk-based security approach 
across all modes of transportation. We are dedicated to 
preventing terrorist attacks, reducing the vulnerability of our 
transportation systems to terrorism, and improving the 
experience of the nearly 1.8 million domestic air passengers 
who fly each day.
    Throughout the planning efforts, TSA and its DHS components 
were careful to strike a balance to take prudent, responsible 
steps to implementing the across-the-board budget reductions. 
Our guiding principles have been as follows. One, preserve 
TSA's frontline operations and other mission-critical 
activities to the maximum extent possible. Two, take care of 
our workforce by managing hiring practices, managing overtime 
and through other means.
    While the reductions required by sequestration will 
continue to impact our operations, the recent passage by 
Congress of the fiscal year 2013 Consolidated and Further 
Continuing Appropriation Act provides TSA with some additional 
funding for transportation security officers, which to some 
degree lessens the impact on our workforce and operations.
    TSA will use these additional funds to maintain its 
security screening workforce through prudent management of 
hiring and controlled overtime.
    Although initial projected impacts on wait times are likely 
to be mitigated through the additional funding provided by 
Congress, travelers may see lines and wait times increase 
during the busiest travel periods or required surge operations. 
The Federal Air Marshal Service has had a hiring pause in place 
for more than a year to manage a planned program adjustment 
from $965.8 million in fiscal year 2012 to $929.6 million in 
fiscal year 2013. Congress further reduced that funding in the 
full fiscal year 2013 appropriation to $906.9 million, or $858 
million under sequestration, an 11.1 percent cut below fiscal 
year 2012 levels.
    The FAMS mission funding is dominated by personnel, travel, 
and related costs. TSA continues to assess the personnel 
actions and mission adjustments that will be necessary at this 
decreased budget level.
    Sequestration has also had impacts on TSA's information 
technology, checkpoint technology, security screening equipment 
and infrastructure accounts, totaling a $288 million reduction 
from fiscal year 2012. In light of these cuts, IT service 
contracts, equipment refreshment and maintenance schedules will 
be deferred or reduced through the end of the fiscal year. 
Furthermore, security equipment technology replacement and 
investment plans are being adjusted to reflect the reduced 
budget level.
    Finally, TSA is taking action to establish additional 
controls across the agency. We have canceled previously 
approved training activities, conferences and meetings that 
require travel. This includes management control training, 
field and oversight and compliance audits, operational and 
support program coordination planning and preparedness 
training.
    Our Nation continues to face an evolving threat to our 
transportation system. In the face of sequestration, TSA will 
continue implementing an intelligence-driven, risk-based 
approach to security across all transportation modes, and to do 
so as efficiently as possible.
    Thank you for the opportunity to appear before you today. I 
look forward to answering your questions.
    [Prepared statement of Mr. Halinski follows:]


    [GRAPHIC] [TIFF OMITTED] 81243.001
    
    [GRAPHIC] [TIFF OMITTED] 81243.002
    
    [GRAPHIC] [TIFF OMITTED] 81243.003
    
    [GRAPHIC] [TIFF OMITTED] 81243.004
    
    [GRAPHIC] [TIFF OMITTED] 81243.005
    
    Mr. Chaffetz. Thank you, Mr. Halinski. Again, we appreciate 
your being here.
    I will now recognize myself for five minutes.
    How many furloughs do you anticipate, or how many have 
happened so far and how many do you anticipate?
    Mr. Halinski. Sir, at this point we do not anticipate any 
furloughs. We believe that through managed hiring practices, 
and control of overtime, we will not have to furlough any of 
our personnel.
    Mr. Chaffetz. So no furloughs. Number two here on my list 
of questions, where specifically are we experiencing longer 
lines than pre-sequestration? You have the same personnel, 
right? So there are no furloughs. Where are we having longer 
lines?
    Mr. Halinski. Sir, I would tell you that I don't know that 
we are having longer lines across the board anywhere at the 
checkpoint. If we do, it can be dependent on a number of 
factors, weather, flight delays, things like that.
    Mr. Chaffetz. So there are natural things that would happen 
that have nothing to do with sequestration. Would it be fair 
for me to say that due to sequestration, there are no longer 
lines?
    Mr. Halinski. I would say that we have not experienced any 
longer lines at this point, sir.
    Mr. Chaffetz. When did you start planning for 
sequestration?
    Mr. Halinski. Sir, we started planning for sequestration in 
2012.
    Mr. Chaffetz. Do you know when in 2012?
    Mr. Halinski. I don't have that right off the top of my 
head, sir. I know it was in late 2012 we started looking at 
sequestration, the effects. And we planned almost on a daily 
basis. We looked at a number of factors. What I would say, sir, 
is that things moved quickly. It was bit of a moving target. 
Sequestration, no sequestration, CR, no CR, budget, no budget. 
And we continued to plan based on numbers that we got both from 
the House and the Senate.
    Mr. Chaffetz. What I am trying to do is commend you for the 
fact that, the contrast that I see here, I want to commend you 
for planning in such a way that you were able to absorb a cut 
in the budget. Despite what Secretary Napolitano said, there 
are no longer lines, there are no furloughs out there. TSA is 
one place that we can point where the services were basically 
uninterrupted, and the effect to the public was minimized. I 
compliment you for that. I think we can all, every once in a 
while, we have growing and expanding budgets and you have cut 
back just a little bit, you have tightened your belt a little 
bit, you have become more efficient. Sometimes that pushes you. 
My compliments and hats off to you.
    The inbound international passengers are experiencing some 
lines. But that has nothing to do with the TSA, is that 
correct? Is that Customs and Border Patrol that is slowing 
those lines down?
    Mr. Halinski. Sir, I believe that the Secretary clarified a 
couple of weeks ago when she was talking about longer wait 
times that it was not the TSA, that it was Customs and Border 
Protection, where they were experiencing longer wait times, 
sir.
    Mr. Chaffetz. So you did something that they didn't do. 
Obviously you have been able to make the adjustments, no 
furloughs, no longer lines. I think there are an awful lot of 
scare tactics out there, they still continue, you still have 
people saying, oh, my goodness, the world is falling down and 
people are going to die and we can't invest. But at least I 
think part of the story here with the TSA is you have been able 
to absorb it. The public has been well served.
    There are still a lot of issues that we have with the TSA. 
But what I am trying to get at is specific to sequestration. I 
think that is interesting.
    I know Mr. Mica has done a lot of work on this, 
particularly as the chair of the Transportation Committee, he 
may hit on this as well. I want to ask you about the TWIC 
program, this is the Transportation Worker Identification 
Cards. There was a GAO report back in May of 2011 that said 
that it ``could cost the Federal Government and the private 
sector combined total of between $694.3 million and $3.2 
billion over a 10-year period.'' And yet still to this day, we 
don't even have the scanners needed to read these cards.
    This and the FAA card, which I am not going to hold you 
responsible for, that is another whole issue, but the TWIC 
card, where are we with that? What kinds of problems and 
challenges is that causing at security, particularly at 
airports?
    Mr. Halinski. Sir, first let me say that the TWIC program 
is a fee-based program, number one. Two, that the TSA portion 
of the TWIC program, and we work very closely with the Coast 
Guard and the Department on this particular program, TSA's 
portion of this basically can be defined in two areas. The 
first I would say is customer support at the enrollment 
centers. I would tell you that we have done an assessment of 
those particular enrollment centers based on complaints that we 
received. We have adjusted that, we have changed contractors 
and we are having a more direct approach on that customer 
service approach and oversight.
    The second piece is more of a technical piece for TSA, sir, 
and that is the identification of readers, quite frankly. We 
would provide a best qualified or a recommended qualified list 
of readers. One of the issues that we have encountered, sir, is 
the fact that trying to look at contractors that have readers 
and push them forward to try to develop readers that we think 
will meet the requirements. We believe we are working on that, 
we just had an industry day last week with a variety of vendors 
to provide those readers. We would like to get that out in a 
very short period of time, a recommended list for the TWIC card 
moving forward.
    As I said, we worked very closely with the Coast Guard on 
this, sir, and the Department, on the TWIC program.
    Mr. Chaffetz. Thank you. I look forward to continued 
updates. This is a very costly endeavor and should have really 
been implemented much sooner. But I appreciate the update and 
look forward to more.
    I will now recognize the ranking member here today, Ms. 
Speier, for five minutes.
    Ms. Speier. Thank you, Mr. Chairman.
    Mr. Halinski, you actually had money restored to your 
budget after sequestration in the CR. How much was restored to 
your budget?
    Mr. Halinski. Ma'am, I don't have that right here. The 
other piece that I think is important about TSA is that we also 
have two-year money. Unlike many other components in DHS, and 
many other agencies, we had two-year money with carryover. So 
that helped us quite a bit, where it may not have helped other 
components or the Department.
    Ms. Speier. So the chairman's comments that well, you 
didn't furlough anyone, you were able to live within 
sequestration, does not take into effect that one, you have a 
two-year budget, and two, in the CR you had money restored to 
your budget that other departments did not have, is that 
correct?
    Mr. Halinski. I would tell you, ma'am, I would like to go 
back to what I said about planning. We have planned 
meticulously for sequestration. We want to focus on two things. 
One is making sure that we accomplish our mission based on the 
threat. Two is that we take care of our workforce. We have 
tried to avoid furloughs, we have used two-year money. We have 
used money that was resubmitted to us. And that is the process 
we have used. We continue to plan to make sure that we can 
accomplish those first two objectives.
    Ms. Speier. All right. We tend to focus on the airports as 
being your sole responsibility. The truth is, TSA also has the 
responsibility to oversee rail security and pipeline security, 
is that correct?
    Mr. Halinski. Yes, ma'am, it is.
    Ms. Speier. I just wanted to make a point of that.
    I have had an interesting experience with TSA and their 
uniforms. A number of years ago, a contract was issued to a 
company here in the United States to make the uniforms for TSA. 
It was competitively bid. And once it had the contract, it 
realized there wasn't a requirement that the actual uniforms be 
made in the United States. So they closed the plant here in the 
United States and they made the uniforms in Mexico.
    Is this the same company that you have just issued a new 
contract to?
    Mr. Halinski. I am not sure if it is the same company, 
ma'am. The company that we use is a company called VF Image. A 
portion of the uniforms are made in Mexico. We have to comply 
by NAFTA as well as the U.S.-Chilean trade agreement. We are in 
compliance with the law in that area.
    About a third of the uniforms that our officers have are 
made in the United States. The material itself is made in the 
United States. The company assembles the uniforms and it is 
shipped back and we are trying to comply with the NAFTA and the 
U.S.-Chilean trade agreement, ma'am.
    Ms. Speier. Mr. Halinski, we somehow get around the NAFTA 
rule when it comes to military uniforms being made in the 
United States for security purposes. I can't imagine why NAFTA 
applies to TSA. And, if in fact, NAFTA does apply to TSA, then 
I think this committee should take some steps to make sure that 
we are making these uniforms in the United States, and not in a 
foreign country whether NAFTA is involved or not. We actually 
closed a plant here in the United States. Jobs were lost in the 
United States because this company, upon getting the contract, 
recognized it could make them in Mexico.
    Now, let's move on to talk about this. This is a $50 
million contract. Is this a ceiling, or is this the actual 
amount of money that will be spent on these uniforms?
    Mr. Halinski. Ma'am, it is a ceiling. It is a bridge 
contract. We are moving to align with the Department so that 
the acquisition process for the uniforms in the future. It is a 
two-year bridge contract. It is the ceiling. Typically over the 
last couple of years, the allowance that we have spent on 
uniforms is between $16 million and about $19 million.
    I would say, ma'am, it is essential, we are a uniformed 
service, we require uniforms to conduct our activities.
    Ms. Speier. I understand that. Is there a provision within 
this contract for you to cancel the contract?
    Mr. Halinski. Ma'am, I don't know that. I could get back 
with you on that.
    Ms. Speier. All right, would you please inform the 
committee about that?
    I still continue to be very disturbed that these uniforms 
are being made, the majority of these uniforms, based on your 
testimony, two-thirds of them are being made outside the United 
States. It is a slap in the American people's face, I think. 
And for all the people that are unemployed in this Country, 
even today, the fact that we are making them in Mexico is very 
disturbing to me.
    I yield back.
    Mr. Chaffetz. I now recognize the gentleman from Florida, 
Mr. Mica, for five minutes.
    Mr. Mica. Thank you.
    Let me continue on the uniforms. What did you just say, 
that we are a uniformed agency? What was your term?
    Mr. Halinski. Yes, sir, we are a uniformed service.
    Mr. Mica. Who told you you were? Where is it written?
    Mr. Halinski. Sir, I will have to go back.
    Mr. Mica. Where is it written? You just said that before 
the committee.
    Mr. Halinski. Sir, I believe it is in ATSA that we are a 
uniformed agency.
    Mr. Mica. Are your personnel, your screeners, are they 
sworn personnel? Are they sworn law enforcement personnel? The 
answer is no. You are the deputy, you don't know. First of all, 
you came up with the term that they are uniformed. Secondly, 
you do not know whether they are sworn. Are they sworn 
personnel? Are they law enforcement personnel? They are not. 
Come on, admit it to the committee. Yes or no? Is there some 
acoustical problem we have here? Maybe staff should check it. 
Can he hear me? Can the witness hear me?
    Mr. Halinski. Yes, sir, I can hear you.
    Mr. Mica. Are they sworn personnel? They are not. Is that 
correct? They are not sworn personnel. Why do we even have law 
enforcement personnel to supplement TSA personnel at almost 
every exit? Because TSA are not law enforcement officers. They 
are screeners. And now you are telling me they are uniformed 
personnel. You just heard the ranking member, what an insult.
    You hijack an agency like TSA, you turn it into one of the 
biggest bureaucracies we have ever created. I want to know the 
cost of changing out, you had white uniforms, didn't you, when 
we started for many years? Didn't we have white uniforms, 
without a badge? They had a TSA patch without a badge? How much 
did the badges cost?
    They are not sworn, or they are not law enforcement. You 
went out and bought millions of dollars worth of badges, didn't 
you? The insult too is we're wearing Mexican uniforms, you 
changed them out to blue to look like law enforcement folks 
another mirage. Have you ever looked at England and U.K., for 
example, two areas that have experienced probably the highest 
levels of terrorism and bombing and terrorist incidents? Most 
of their employees don't even wear uniforms, did you know that? 
Have you been there, to both of those?
    Mr. Halinski. Yes, sir, I have.
    Mr. Mica. Did you notice that? I was just in Israel earlier 
this year. I was in the U.K. just a while ago, inspected the 
people who are there. They don't even wear them. Here, you 
spent $50 million, now I am told you have committed this every 
year, this is a $1,000 a year, 51,000 employees, is that true? 
Just before sequestration, you signed the contract, right?
    Were you aware that our uniformed personnel, like our 
Marines, get a one-time $400 lifetime allowance when you cooked 
that deal with the unions? Were you aware of that? Did you look 
at that?
    Mr. Halinski. Could I have an opportunity to respond, sir?
    Mr. Mica. Did you look at who else, like men and women who 
put their lives at risk in our military, what they get as an 
allowance? Is that going to continue? Is that going to continue 
every year?
    Mr. Halinski. Sir, I spent 25 years in the Marine Corps. I 
know the Marine Corps very well.
    Mr. Mica. Okay, then you should know the allowance. I am 
more offended by someone who has been in the Marines or aware 
of the Marines and to give that kind of a deal. Is this every 
year?
    Mr. Halinski. Sir, may I have a chance to respond?
    Mr. Mica. Is it a thousand dollars a year? Simple question.
    Mr. Halinski. Sir, what we spend on our uniforms is not a 
thousand dollars a year. We have an initial allowance of about 
$371, which allows our screeners to buy three sets of uniforms.
    Mr. Mica. To wear the Mexican uniforms.
    Mr. Halinski. Sir, those are uniforms that are in 
compliance with the regulation. They are the uniforms that were 
procured through a procurement process which was the most 
effective process, sir.
    Mr. Mica. Let me say, Mr. Deputy Secretary, I have no 
problem with collective bargaining. I think you are screwing 
the screeners, when you spend $1.2 million in administration 
and they are getting about $1.8 or $1.9 billion, when you have 
28 percent of the personnel in Washington as supervisors, the 
average salary in Washington, D.C. for personnel is $104,000 a 
year. And those guys are dogging it at $38,357, on average. I 
have no problem with that.
    I see the other great things you negotiated with, some 
conduct of security in business or anything, improving that. It 
was the size of the tie tack, wasn't that part of the 
agreement, whether they could wear a TSA emblem on their ball 
caps, is that correct? Whether they could wear a vest with the 
TSA emblem, those are some of the other terms of the agreement?
    Mr. Halinski. Sir, I can answer your questions on the 
uniform if I have an opportunity to speak.
    Mr. Mica. Mr. Chairman, I have a whole host of questions, I 
don't know if we will get to another round. But they ignored us 
in the Transportation Committee for a total of six years. We 
have questions that they have not answered. I will submit to 
the committee all of the remaining questions. And I know you 
signed off and Mr. Issa signed off, they still have not 
responded.
    And I am telling you, if I have to come down there and sit 
in Mr. Pistole's office, we are going to get answers to those 
questions that are pending. They will be submitted through the 
committee and the chairman. And if we have another round, I 
have additional questions.
    Ms. Speier. Mr. Chairman?
    Mr. Chaffetz. Yes.
    Ms. Speier. I would request that Mr. Halinski be given the 
opportunity to answer those questions.
    Mr. Chaffetz. We will certainly submit the questions. And 
Mr. Halinski, if you would like to take time to respond, we 
will be happy to have you do that. Then we will recognize the 
ranking member of the full committee, Mr. Cummings.
    Mr. Halinski. Yes, sir. On the subject of the uniforms, 
sir, every personnel that comes into TSA takes an oath to 
defend the Constitution of the United States. We serve the 
public, sir. Our job is to protect the traveling public. We 
take that very serious. If we fail at our job, people die.
    We wear uniforms. We are a uniformed service. It doesn't 
mean we are a law enforcement service. We are a uniformed 
service. We looked at this contract because it was expiring. We 
went through many different planning processes. We were not 
going to have a contract to buy new uniforms or replace worn 
and torn uniforms if we didn't sign that contract.
    Bad timing, sir, 17 February, 2013. It wasn't 
Machiavellian, we weren't doing that against anybody. We want 
and we have to have uniforms, bottom line. We follow an 
acquisition and procurement process which means that we go for 
the lowest cost uniforms, sir. And quite frankly, it is a 
bridge contract, it is a two-year contract. We have no 
intentions of, hopefully not, getting anywhere near that 
ceiling. But it is a requirement that we have those uniforms, 
sir.
    Mr. Chaffetz. Thank you.
    We will now recognize the gentleman from Maryland, the 
ranking member, Mr. Cummings, for five minutes.
    Mr. Cummings. Mr. Halinski, I am sure you can understand 
the frustration. We are trying to make sure that Americans have 
jobs. And certainly your challenges, because like NAFTA and the 
things you have to do in the bidding process, got that. But I 
want to make sure that you know that we up here are trying to 
make sure, just like those TSA folks have their jobs, we want 
to make sure that other Americans have jobs, too.
    But I do understand the dilemma. All I am saying is that 
wherever American jobs can be provided, we need to do that. You 
got that? Are you listening, sir?
    Mr. Halinski. I understand, sir. Absolutely.
    Mr. Cummings. All right.
    I can imagine your frustration, I sit on the Transportation 
Committee also. Whenever there is a problem with regard to 
something getting through an airport, with somebody getting 
through an airport, you are damned. And at the same time, I 
guess TSA is trying to keep a balance, personnel trying to 
figure out how many people you need at certain airports, so 
that you can protect the public. Got that.
    The question is, you are in a situation right now where, 
and I am going to something Ms. Speier asked you about, she was 
asking you that you had some funds restored under the CR, you 
said you did, did you not?
    Mr. Halinski. We did, yes, sir.
    Mr. Cummings. And she asked you at least three times how 
much was restored. You don't know that answer?
    Mr. Halinski. I don't have that right in front of me, sir. 
I can get back with that answer, sir. We were given enough 
funds which has helped us maintain our screening work.
    Mr. Cummings. I understand that. I would suggest to you 
that whenever you are testifying before Congress and they are 
going to ask you about the things that we are talking about, a 
logical bit of information to have is that, you have to 
anticipate some questions, and that is one you should have 
anticipated, how much money you have and what impact has that 
had on what you have been able to do, that is, maintaining 
services as they are.
    And so you don't know that. And I would think that the two 
people sitting behind you, are they with you?
    Mr. Halinski. Yes, sir
    Mr. Cummings. They should have been able to get a cell 
phone call in the meantime to let us know that. Hopefully we 
can find that out very shortly.
    But you are freezing employment, right? In other words, if 
somebody retires, you are not hiring anybody? Or somebody 
quits, you are not hiring anybody? Or are you?
    Mr. Halinski. We are hiring, sir.
    Mr. Cummings. You are?
    Mr. Halinski. Yes, sir. The way we have been able to manage 
this sequestration is to do it through managed hiring, managing 
our overtime. And what do I mean by managed hiring, sir, what I 
am talking about, we understand, we have a normal attrition 
rate per year. We look at the attrition rate, it is also very 
dependent on specific airports and regions in the Country. What 
we are doing is we are hiring to a level that we believe, and 
it is a very high level, and in some cases it is 100 percent, 
so that we can continue to conduct the mission. It is planning, 
sir, and we are planning to that level and we are hiring to 
that level.
    We are also managing overtime. We are trying to restrict 
overtime to only mission-critical, absolutely mission-critical 
periods of time. That is the way we are dealing with 
sequestration, sir, through proper planning and through looking 
at it every single day.
    Mr. Cummings. Let's go to managed hiring. I just have two 
more questions. Under managed hiring, there is a bottom line, 
is there not? In other words, there is a goal. Say for example, 
you spent a billion dollars last year, maybe you want to come 
down to three-fourths of a billion this year. Do you have a 
goal? Do you follow what I am saying?
    Mr. Halinski. Sir, we are looking at it from a fiscal 
process, but more importantly, we are looking at it from a 
threat perspective and also a manpower issue. So when we are 
looking at this, we are factoring all those areas in there. 
Specifically to accomplish our mission, which is to secure 
those airports. We are looking at threats in those specific 
airports, down to specific airports.
    Mr. Cummings. I got that.
    Mr. Halinski. How many people we need to accomplish that 
mission. And that is how we are hiring. And what the attrition 
rate is in those areas. Some airports have higher attrition 
rates. That is why in some airports we will hire absolutely to 
100 percent.
    Mr. Cummings. What I am asking you, though, the thing that 
you also have to calculate in there, I am assuming, is cost, 
right? In other words, you are trying to get out of it. You are 
not answering my question. Are you trying to get to a certain 
goal, cost-wise?
    Mr. Halinski. Sir, what we are looking at it the modeling 
that we need to accomplish that mission. Yes, we are factoring 
in costs.
    Mr. Cummings. So you want to reduce costs?
    Mr. Halinski. Yes, sir.
    Mr. Cummings. That is all I am asking you.
    Mr. Halinski. Yes, sir, we are looking at costs. We are 
trying to save wherever we can, sir. And that is why we are 
looking at some reduced manpower models in specific airports, 
based on what we need to accomplish that mission. So yes, we 
are looking at costs. I have a financial team of analysts that 
look at those costs. I don't have those costs right in front of 
me, sir. Next time I will be better prepared.
    Mr. Cummings. Thank you. Just the last thing, and I think 
we all should be interested in this, and you should be 
interested in this question, too. The question becomes, if you 
are managing overtime, does that mean that you are overspending 
for overtime at some point? Do you follow what I am saying?
    I am assuming that you are keeping safety at the same 
level. I am assuming you are spending less money. But I mean, 
for credibility's sake, for your credibility's sake, I am just 
curious, were we overspending on overtime? Do you follow me?
    Mr. Halinski. Yes, sir. No, I do not believe we were. When 
we are talking about looking at overtime, let me give you an 
example, sir. In an airport, to preclude periods of extended 
lines, things like that, we may bring on more people for a 
period of time. So what we are trying to do is look at where we 
think the threat is, where we see the highest volume of 
traffic, and managing that based on the expectation that we 
move people through the checkpoint quickly. The idea is to use 
a risk-based philosophy, move them through quickly, and focus 
on where we consider the highest threat, sir.
    Mr. Cummings. Thank you very much
    Thank you, Mr. Chairman. You have been most courteous, 
thank you.
    Mr. Chaffetz. I thank you.
    We will now recognize the gentleman from South Carolina, 
Mr. Gowdy, for five minutes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Chairman, I had initially intended to yield my time to 
you. Because of all the folks that I have worked with in 
Congress, at least in the two years I have been here, you have 
been as interested in the workings of TSA as any of my 
colleagues. So that was my original intent, and I think I will 
still do that at some point.
    But Mr. Halinski, some earlier questioning led me to want 
to ask you a couple of questions. Let me start by saying thank 
you for your service to our Country. I think you told Mr. Mica 
that you served in the Marine Corps, and I want to thank you 
for your service.
    You also, in response to Chairman Chaffetz, he asked you 
some questions about some prior comments made by Secretary 
Napolitano. My concern is that once credibility is impeached, 
it is awfully hard to get back. Credibility can be impeached 
either because of a prior inconsistent statement, or 
credibility can be impeached because of the use of hyperbole. 
So when you say there are going to be furloughs and there is no 
furlough, that to me impacts someone's credibility.
    So do you know the genesis or the origin of her mistaken 
belief that there were going to be furloughs because of 
sequestration?
    Mr. Halinski. Sir, first, I can't speak for the Secretary. 
But I would tell you that the entire Department was working 
together, looking at what was needed, what money would be 
available, what the impact of sequestration would be. As I said 
earlier, it was a moving target, sir.
    Mr. Gowdy. I understand that, and I understand you can't 
speak for her. I am not asking you to speak for her. What I am 
asking is, did she speak to you?
    Mr. Halinski. Sir, we worked very closely with the 
Department.
    Mr. Gowdy. Did she talk to you before she made the public 
statement that there would be furloughs? Who gave her the false 
information which she then relied upon and made public 
proclamations?
    Mr. Halinski. Sir, there was a number of planning factors 
that continued to move throughout the year before 
sequestration, right after sequestration.
    Mr. Gowdy. Why would the better course of discretion not be 
to not make any comments until you actually knew what the heck 
was going to happen? Why would that not be the better course? 
Or am I just naive?
    Mr. Halinski. Sir, I would tell you that we continue to 
plan for a number of different factors.
    Mr. Gowdy. Did she talk to you before she made those public 
comments? That is actually not a complex question.
    Mr. Halinski. Sir, the Secretary did not talk to me, but we 
are working with her staff.
    Mr. Gowdy. So the answer would be no, she did not. Do you 
know who she talked to before she publicly created this Mayan 
apocalypse scenario with long lines and furloughs?
    Mr. Halinski. Sir, I believe the Secretary clarified that 
the long lines and furloughs she was talking about were 
immigration checkpoints
    Mr. Gowdy. But you know what? The beautiful thing about 
clarification is if you get it right the first time, you 
actually don't need to clarify anything. I guess that is what I 
am asking, is why not use a little bit of discretion, gather 
the facts before you go make hyperbolic, apocalyptic comments? 
Why is that not the better course? You agree it is, right? That 
way you don't have to clarify.
    Mr. Halinski. Sir, I am going to go back to what I said 
that there was an enormous amount of planning being done. The 
terrain was shifting continually.
    Mr. Gowdy. And I want to go back to my original question, 
which is, isn't it a better course of discretion to not make 
false comments to begin with? Accordingly, you would never have 
to make a clarification, if you actually gathered your facts 
before you made public pronouncements which were demonstrably 
false.
    Mr. Halinski. Sir, I am going to once again go back to, the 
terrain continued to shift. There was planning every day, there 
was worst case to best case scenario and everything in between, 
how are we going to deal with this.
    Mr. Gowdy. Well, let me ask you a broader question. Do you 
agree, if the public is cynical or skeptical about 
pronouncements made by government, and I include myself in it, 
I am a member of Congress, there is a skepticism and a 
cynicism. Would you not agree that we should make every effort 
to be credible and accurate in what we say, what the effects of 
something are going to be? On both sides of the aisle, 
everyone, regardless of political affiliation, we really ought 
to make an effort to be accurate with what we say. That is not 
a controversial comment, is it?
    Mr. Halinski. No, sir, and I think every day there was a 
different definition of what was going on. And people tried to 
be as accurate as they could.
    Mr. Gowdy. Which is why you don't send out press releases 
every day. Right? If things are changing every day, you wait 
until something actually has settled and you don't send out 
press releases every day. That would obviate the need for 
clarification, in my judgment.
    With that, I would yield the remainder of my time to 
Chairman Chaffetz.
    Mr. Chaffetz. Mr. Halinski, the difficult part, and I know 
you are not the Secretary, you didn't make this comment, but 
she was quoted, and I will read the quote from her, ``We will 
begin today sending out furlough notices.'' Now, I don't know 
what time of day she said that, but by the time we got to the 
end of the day, there were no furlough notices sent out. In 
fact, we are here April 19th and there were no furlough notices 
sent out.
    So we are trying to figure out what changed in those few 
hours and who provided her that information.
    Mr. Halinski. Sir, I believe she was not talking about TSA. 
I believe she was talking about other components within the 
Department and not TSA.
    Mr. Chaffetz. Well, the beginning of the quote is, now that 
we are having to reduce and eliminate basic overtime for both 
TSA and Customs, and then she goes on. And then the story says, 
lines at some Transportation Security Administration 
checkpoints, Napolitano added that the events sponsored by 
Politico, are already, ``already,'' she said, ``150 to 200 
percent as long as we would normally expect.'' But you 
testified that that never happened.
    So the question is, is somebody feeding her bad 
information? How is there such a discrepancy, to say that lines 
are going to be up to 200 percent more and you can't name a 
single one that is even a little bit more?
    Mr. Halinski. Sir, the Secretary did clarify that those 
were Immigration lines that she was talking about at certain 
airports.
    Mr. Chaffetz. Thank you. The gentleman yields back. I will 
now recognize the gentlewoman from California, Ms. Speier.
    Ms. Speier. I have no further questions.
    Mr. Chaffetz. I believe Mr. Mica from Florida has some 
additional questions. This will be the last set of questions, 
and then we will adjourn due to pending votes.
    Mr. Mica. Thank you, Mr. Chairman.
    The latest figures I had for TSA online, are 64,578 
employees. Is that about right, Mr. Halinski?
    Mr. Halinski. Sir, I believe our approximate number right 
now is about 61,000 personnel, sir.
    Mr. Mica. You testified today that we would not need any 
furloughs, is that correct?
    Mr. Halinski. Sir, we are working to avoid furloughs, yes, 
sir.
    Mr. Mica. How many screeners do you have, I think you had 
up to 51,000 approximately?
    Mr. Halinski. Approximately, yes, sir.
    Mr. Mica. Is that still the case?
    Mr. Halinski. I believe it is, sir.
    Mr. Mica. How many vacancies do we have?
    Mr. Halinski. Our screening workforce, sir, we are hiring 
to a certain percentage, roughly we are talking about 47,000 as 
of today, sir.
    Mr. Mica. So you are actually down about 4,000?
    Mr. Halinski. Yes, sir.
    Mr. Mica. At one time we had, Congress had set a maximum of 
40,000. Actually that was when there was a higher number of 
passengers, I believe. So what would be the number of screeners 
that you could operate with without any delays, do you know? 
There are 47,000 could you absorb another 5,000 cut, 10 
percent, 4,000?
    Mr. Halinski. Yes, sir. First let me say that we have a 
layered security program. That layer involves many different 
aspects of security. We believe in the layered program. All our 
screeners are involved in a number of different security 
activities, because we believe a layered effect is the way for 
successful security.
    Mr. Mica. One of the layers that you have that I disagree 
with is the huge bureaucracy, about 9,000 to 10,000 people out 
in the field, and then another, well, it used to be 4,000 in 
Washington. I see you have done some new accounting and taken 
some folks off of that. So it is approximately 3,000. 
Administrator Pistole promised me a downsizing in the 
administrative overhead. Can you tell us, we are down in 
screeners, you just testified, from 51,000 to 47,000.
    Now, again, not doing the phony baloney math, what are we 
at in administrative personnel in Washington and then in the 
field?
    Mr. Halinski. Sir, our headquarters has approximately 2,500 
personnel. That is about 4 percent.
    Mr. Mica. Again, you took out some of the air marshal and 
other activities that were previously counted, is that correct, 
in your new accounting?
    Mr. Halinski. Sir, we have our operations center, we have 
our vetting center in Annapolis. Part of the headquarters 
personnel that you are talking about also was our international 
staff. All of those numbers fell under an accounting line as 
being part of headquarters. Actually they are not located at 
headquarters.
    Mr. Mica. Again, there is a new math, new accounting. But 
what I am trying to get at is the net number of positions that 
have been reduced, both in Washington, D.C., if you could get 
that to the committee and then out in the field. God bless the 
screeners, they are working, there are fewer of them.
    Now, another thing that I haven't been able to get 
information on is you have a national security deployment 
force.
    Mr. Halinski. Yes, sir, we do.
    Mr. Mica. Is that still operating?
    Mr. Halinski. Yes, sir, it is.
    Mr. Mica. They are strange names, and I never get straight 
answers on how much it costs. Because they go out, they are 
sent out at places where you can't hire people or you have 
vacancies for some personnel management reason, is that 
correct?
    Mr. Halinski. Sir, our national deployment force is made up 
of screeners who normally work in the airports. When there is a 
threat, then they are deployed.
    Mr. Mica. I am talking about the people that are sent out 
there, they are put on per diem and they are screening because 
of a lack of ability to either recruit, train or have personnel 
to cover those vacancies. That force is still in place. Will 
you get me and the committee the last five years of costs? You 
changed names a couple of times. When I started inquiring, 
because I had information that they were being put up at 
substantial expense, I don't know for certain, and sent out to 
different places, because again of the failure to be able to 
recruit and train. Are you still recruiting people in the 
Washington area from the tops of pizza boxes?
    Mr. Halinski. I don't believe we are, sir.
    Mr. Mica. How about discount bump advertisements to get a 
job at Reagan? Do you know?
    Mr. Halinski. Sir, we hire personnel through a variety of 
methods. And we vett those personnel.
    Mr. Mica. We have disclosed some of those in the past. The 
other thing, too, since you have been under some siege by 
Congress, this wasn't just a Mica attack or a partisan attack 
from this side of the aisle. I came actually not as well 
prepared as the ranking member, who got you pretty good on the 
uniforms.
    But in fact, I know that you have ramped up your PR team. I 
want to know every penny you have been spending on 
communications, advertisement, et cetera. Can you get that 
information? We will give you a specific, by the end of the 
month.
    Mr. Halinski. Yes, sir. If that is a requirement, we will 
send you that information.
    Mr. Mica. Okay, thank you. I would like to see that.
    I thank you, Mr. Chairman, and yield back.
    Mr. Chaffetz. Thank you.
    Mr. Halinski, thank you for your service. We appreciate 
your willingness to come testify today. The committee now 
stands adjourned.
    [Whereupon, at 11:14 a.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
